Report No. D-2007-088        April 27, 2007




       Special Army Reports Prepared
          by Defense Finance and
             Accounting Service
          Indianapolis Operations
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AGF                   Army General Fund
AWCF                  Army Working Capital Fund
DFAS                  Defense Finance and Accounting Service
HQARS                 Headquarters Accounting and Reporting System
OPM                   Office of Personnel Management
RPPOOL                Report on Personnel and Payroll Outlays by Operating Location
                            INSPECTOR GENERAL

                            DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DRIVE

                         ARLINGTON, VIRGINIA 22202-4704





                                                                            Apri127,2007

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Report on Special Army Reports Prepared by Defense Finance and
         Accounting Service Indianapolis Operations (Report No. D-2007-088)


        We are providing this report for your information and use. We considered
management comments on a draft of this report in preparing the final report. Comments
on the draft of this report conformed to the requirements of DoD Directive 7650.3 and
left no unresolved issues. Therefore, no additional comments are required.

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Jack L. Armstrong at (317) 510-4801, ext. 274 (DSN 699-4801) or Mr. Paul C.
Wenzel at (317) 510-4801, ext. 267 (DSN 699-4801). See Appendix C for the report
distribution. The team members are listed inside the back cover.

                              By direction of the Deputy Inspector General for Auditing:


                                         /Jy
                                         Paul aranetto, CPA

                                Assistant Inspector General and Director

                                  Defense Financial Auditing Service

                Department of Defense Office of Inspector General
Report No. D-2007-088                                                      April 27, 2007
   (Project No. D2006-D000FI-0028.001)

          Special Army Reports Prepared by Defense Finance and
                Accounting Service Indianapolis Operations

                                  Executive Summary

Who Should Read This Report and Why? DoD and Army personnel responsible for
preparing and using special Army reports should read this report. This is the second in a
series of reports related to Army budget execution operations. The first report discussed
the transmission of Army budget execution data by the Defense Finance and Accounting
Service (DFAS) Indianapolis Operations to various accounting systems and the
Department of the Treasury. This report discusses special Army reports prepared by
DFAS Indianapolis Operations.

Background. DFAS Indianapolis Operations provides finance and accounting support to
the Army and Defense agencies. This support includes preparation of 14 recurring
special Army reports that provide financial and other information to DFAS customers.
The special Army reports are either requested by the report user or are required by
regulation and cover areas such as:

           •   proceeds and expenses associated with agriculture, grazing, and forestry;

           •   receivables for Army and Defense; and

           •   foreign currency and unit exchange information.

DFAS Indianapolis Operations prepares the special Army reports based on budget
execution data and data call information submitted by DoD field accounting activities
and other sources.

Results. Of the 14 special Army reports we reviewed, 5 were incorrect, 1 was
unnecessary, and 1 report had no known users. As a result, recipients of special Army
reports were not receiving the information they needed and DFAS Indianapolis
Operations was not using resources effectively. DFAS Indianapolis Operations
management controls were not effective to ensure correct preparation of special Army
reports. The Director of DFAS Indianapolis Operations should revise the standard
operating procedures to ensure that special Army reports are accurate, supervisors review
and approve the reports, and unneeded reports are not prepared. (See the Finding section
of the report for the detailed recommendations.)

Management Comments. The Director of DFAS Indianapolis Operations concurred
with the recommendations; therefore, no further comments are required. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.
Table of Contents

Executive Summary                                                      i

Background                                                             1

Objectives                                                             2

Review of Internal Control                                             2

Finding
     Special Army Reports                                             4


Appendixes
     A. Scope and Methodology                                         15
     B. Special Army Reports                                          16
     C. Report Distribution                                           19

Management Comments
     Defense Finance and Accounting Service Indianapolis Operations   21
Background
           This is the second in a series of reports related to Army budget execution
           operations. The first report discussed the transmission of Army budget execution
           data by the Defense Finance and Accounting Service Indianapolis Operations
           (hereafter referred to as DFAS Indianapolis Operations) to various accounting
           systems and the Department of the Treasury. This report discusses the
           preparation of special Army reports by DFAS Indianapolis Operations based on
           budget execution data and data call information submitted by DoD field
           accounting activities and other sources.

           Defense Finance and Accounting Service Indianapolis Operations. DFAS
           Indianapolis Operations provides finance and accounting support to the Army and
           Defense agencies. DFAS Indianapolis Operations is responsible for preparing
           special Army reports. To compile these reports, DFAS Indianapolis Operations
           uses financial data submitted by DoD field accounting activities and other
           sources. Special Army reports are recurring reports that present financial and
           operational information on a specific area and are either requested by the report
           user or are required by regulation. Special Army reports prepared by DFAS
           Indianapolis Operations are:

                    •   Agriculture and Grazing Report,

                    •   Army Report on Personnel and Payroll Outlays by Operating Location
                        (RPPOOL),

                    •   Federal Aid to States Report,

                    •   Foreign Currency Fluctuation Report,

                    •   Forestry Report,

                    •   Health Services Command Report,

                    •   Investment Status Report,

                    •   L-Account Report, ∗
                    •   Monthly Receivable Reports-Department of the Army and Office of
                        the Secretary of Defense-Army Allocation,

                    •   Morale Welfare and Recreation Report,

                    •   Report of Costs in Support of Secret Service for Protective Assistance
                        (RCS DD-COMP [SA] 1466),



∗
    L-Accounts are used to record obligations related to the Morale, Welfare, and Recreation and Family
    Program funds.



                                                      1
            •   Report on Work Years and Personnel Costs-Office of Personnel
                Management (OPM) 0197,

            •   Treasury Reports on Receivables-Department of the Army and Office
                of the Secretary of Defense-Army Allocation, and

            •   Unit Exchange Report.

     See Appendix B for the more information on the source data, purpose, frequency,
     and recipients of special Army reports.

     Accounting Systems. DFAS Indianapolis Operations uses the Headquarters
     Accounting and Reporting System (HQARS) to receive, validate, and consolidate
     budget execution data from field accounting offices. HQARS is a legacy
     reporting system that does not meet Federal system requirements. DFAS
     Indianapolis Operations generates the special Army reports from a consolidation
     of budget execution data and data call information submitted by the field
     accounting offices and other sources.


Objectives
     The overall audit objective was to determine whether internal controls over
     budget execution operations at Defense Finance and Accounting Service
     Indianapolis Operations are adequate to ensure accurate managerial and budget
     execution reports. We also evaluated the effectiveness of management’s
     assessment of internal controls as it related to the audit objective. See
     Appendix A for a discussion of the scope and methodology related to the
     objectives.


Review of Internal Control
     DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
     January 4, 2006, requires DoD organizations to implement a comprehensive
     system of internal controls that provides reasonable assurance that programs are
     operating as intended and to evaluate the adequacy of the controls.

     Scope of the Review of the Management Control Program. We evaluated the
     DFAS Indianapolis Operations internal controls over budget execution
     operations. Specifically, our review focused on the Budget Execution Operations
     of the Directorate for Departmental Accounting. We also reviewed the adequacy
     of management’s self-evaluation of those controls.

     Adequacy of Management Controls. We identified a material management
     control weakness for DFAS Indianapolis Operations, as defined by DoD
     Instruction 5010.40. DFAS Indianapolis Operations management controls were
     not effective to ensure correct preparation of special Army reports.



                                         2
Recommendations 1., 2., 3., 4., 5., and 6., if implemented, will correct the
identified weakness. A copy of the report will be provided to the senior official
responsible for management controls in DFAS Indianapolis Operations.

Adequacy of Management’s Self-Evaluation. DFAS Indianapolis Operations
officials identified the preparation of special Army reports as part of an assessable
unit. However, the DFAS Indianapolis Operations self-evaluation was not
effective in identifying the management control weakness addressed by the audit.




                                      3
    Special Army Reports
           DFAS Indianapolis Operations prepared five special Army reports that
           were incorrect, one report that was unnecessary, and one report that had
           no known users. DFAS Indianapolis Operations managers did not provide
           adequate oversight over the preparation of the special Army reports, and
           the standard operating procedures on report preparation were not
           adequate. As a result, recipients of special Army reports were not
           receiving the information they needed and DFAS Indianapolis Operations
           was not making effective use of resources.


Preparation of Special Army Reports
    DFAS Indianapolis Operations prepares 14 special Army reports. We examined
    the 14 special Army reports and determined that the following 5 special Army
    reports were incorrect:

           •   Army Report on Personnel and Payroll Outlays by Operating
               Location,

           •   Health Services Command Report,

           •   Foreign Currency Fluctuation Report,

           •   Report on Work Years and Personnel Costs - OPM 0197, and

           •   Morale, Welfare, and Recreation Report.

    In addition, the Report of Costs in Support of Secret Service for Protective
    Assistance (RCS DD-COMP [SA] 1466) was unnecessary, and the Unit Exchange
    Report was prepared even though there were no known users.


Army Report on Personnel and Payroll Outlays by Operating
  Location
    DFAS Indianapolis Operations reported inaccurate and incomplete data on the
    FY 2005 Army RPPOOL Report. The FY 2005 Army RPPOOL was made up of
    24,340 records that reported data by operating locations. Of the 24,340 records,
    9,045 reported an amount for either military strength or military pay, or both, as
    identified in Table 1. The remaining 15,295 records reported data other than
    military strength or military pay. Of the 9,045 records, 8,129 reported zero
    military strength, but reported military pay of $8.25 billion. Another 314 records
    reported 196,702 military strength, but a zero amount for the military pay. The
    remaining 602 records contained amounts in both the military strength column
    and the military pay column. Although both columns were populated for these



                                         4
    602 records, many of the records included unrealistic data, such as where a single
    person was earning millions of dollars, and in one case, earning $1.0 billion.

            Table 1. FY 2005 Army Report on Personnel and Payroll Outlays
                               By Operating Location
         Category           Records       Military Strength Military Payments
                                                                  (billions)
     No Military                   8,129                  0               $ 8.25
     Strength, but
     Payments
     Military Strength,              314            196,702                    $0
     but no Payments
     Military Strength               602            298,855                 18.08
     and Payments
      Total                        9,045            495,557                 26.33


    DFAS Indianapolis Operations provides the Army RPPOOL report to the Defense
    Manpower Data Center. We contacted the report recipient, and he stated that the
    Army RPPOOL reports prepared by DFAS Indianapolis Operations are so
    unreliable that the Defense Manpower Data Center is unable to use them. The
    customer said that since FY 2000, DFAS Indianapolis Operations has not
    prepared an accurate Army RPPOOL report. When asked if the report should be
    discontinued, the customer stated that he would definitely use the report if it were
    accurately prepared.

    The DFAS Indianapolis Operations standard operating procedure on report
    preparation requires a quality check on the Army RPPOOL to ensure that the data
    are not out of alignment with the prior year’s report. However, it is not enough to
    simply check whether the data is in alignment with the prior year’s report. The
    data reported in the Army RPPOOL also needs to be correctly aligned by
    operating location. Large military payroll outlays at operating locations with no
    military personnel and operating locations with large military personnel numbers
    and no military payroll outlays should be researched and corrected. Special Army
    reports that are so inaccurate that they cannot be used are a waste of DFAS
    resources. According to the preparer, this report requires an estimated 40 hours
    per year to prepare. DFAS Indianapolis Operations should require a review of the
    Army RPPOOL to ensure that data are correctly aligned at the operating location
    level.


Health Services Command Report
    DFAS Indianapolis Operations prepared incomplete Health Services Command
    Reports from February 2006 through July 2006. DFAS Indianapolis Operations
    erroneously omitted a total of 108,012 records for the Department of Defense-
    Veterans Affairs Health Care Sharing Incentive Fund (97-X-0165), Defense
    Health Program (97-*-0130), and the Defense Health Program, Global HIV/AIDS


                                         5
    Initiative Transfer Account (97-X-1030) appropriations from the February 2006
    through July 2006 Health Services Command Reports. The 108,012 omitted
    records had a net total of $43.8 billion and an absolute value total of
    $61.62 billion. Table 2 identifies the records that were missing from the
    February 2006 through July 2006 Health Services Command Reports.

                    Table 2. Data Excluded from February 2006 to July 2006
                               Health Services Command Report
        Month            Missing         Appropriation           Net Total       Absolute Total
                         Records
     February                      54 97-X-0165             $      20,108,697    $      23,428,331
     2006
     March 2006                    77   97-X-0165                   24,746,682           31,652,706
     April 2006                    77   97-X-0165                   24,148,581           33,119,024
     May 2006                      95   97-X-0165                   24,676,977           39,579,949
     June 2006                     85   97-X-0165                   24,724,600           32,983,906
     July 2006                107,624   97-X-0165               43,682,813,054       61,460,733,837
                                        97-*-0130
                                        97-X-1030
     Total                    108,012                       $43,801,218,591      $61,621,497,753


    We asked the DFAS Indianapolis Operations report preparer why the July 2006
    report did not contain any data for 97-X-0165. Afterwards, he prepared a revised
    July 2006 Health Services Command Report that included the missing 107,624
    lines of data.

    The DFAS Indianapolis Operations standard operating procedure on preparation
    of the Health Services Command Report did not require a quality review of the
    completed report prior to submission to the report user. The DFAS Indianapolis
    Operations report preparer should review the Health Services Command Report
    for completeness prior to submission to the report user. Omitted records in
    reports that present large amounts of data, such as the Health Services Command
    Report, may not be readily apparent and can lead to decisions based on incorrect
    information being made by report users. According to the preparer, this report
    requires an estimated 2 hours of work per month, or 24 hours annually.


Foreign Currency Fluctuation Report
    DFAS Indianapolis Operations reported amounts on the September 2005 through
    June 2006 Foreign Currency Fluctuation Report, DD COMP (M) 1761 that were
    inaccurate and inconsistent with the amounts DFAS Indianapolis Operations
    reported on the Foreign Currency Fluctuation line of the Appropriation Status by
    Fiscal Year Program and Subaccounts, also called the 1002 report. The 1002


                                        6
report summarizes the status of Army appropriations and includes a Foreign
Currency Fluctuation line that identifies the foreign currency fluctuation amount
for certain appropriations. DFAS Indianapolis Operations prepares both the 1761
and the 1002 report from budget execution data in HQARS. We identified
variances for appropriations 21-0509-2050, 21-0509-0720, 97-0610-0500.5108,
21-06-0725, and 21-0610-0720. Table 3 identifies examples of the variances
between the 1761 and the 1002 report.

                 Table 3. Examples of Variances Between 1761 and 1002
                                (Dollars in Thousands)
       Month        Appropriation         1761       1002     Variance     Percentage
                                                                            Variance
September 2005     21-0509-2050          $ 58,021    $55,089     $ 2,932           5.3
September 2005     21-0509-0720           11,442      11,228         214              1.9
November 2005      97-0610-0500.5108           0         141         141            100.0
January 2006       21-06-0725             86,376      18,969      67,407            355.4
February 2006      21-0610-0720            5,284       4,331         953             22.0
March 2006         21-06-0725            128,807      25,082     103,725            413.5
June 2006          21-0610-0720            9,896       9,565         331              3.5


The DFAS Indianapolis Operations standard operating procedure on preparing the
1761 required that a comparison be done between the 1761 and the 1002 report.
However, the standard operating procedure required that the accrued variance on
the worksheets used to prepare the 1761 be compared to the disbursements in the
foreign currency Army Management Structure section of the 1002 reports. This
instruction was incorrect, as the 1002 report does not present any information
comparable to the accrued variances reported on the 1761 and report preparation
worksheets. Instead, the realized variances reported on the 1761 should match the
gross disbursements in current fiscal year reported on the Foreign Currency
Fluctuation line of the 1002 report. A correct comparison between the two
reports would have identified the following.

   •    Amounts reported on the 1761 were not reported in the correct columns.
        For example, the amounts reported for Foreign Currency Liquidated
        Obligations (Budget Rate) on the 1761 report were actually the Realized
        Variance Amounts.

   •    The automated process used by DFAS Indianapolis Operations to generate
        the 1761 was not picking up the same foreign currency amounts that were
        used for the 1002 reports.

   •    In one instance, DFAS Indianapolis Operations caused a variance between
        the 1761 report and the 1002 report by posting a 1761 report on the DFAS
        Indianapolis Operations website with different amounts than were on the
        1761 report that was available on the DFAS Indianapolis Operations
        internal computer network.



                                    7
     DFAS Indianapolis Operations should report amounts on the 1761 that are
     consistent with the amounts on the Foreign Currency Fluctuation line of the 1002
     report. Inaccurate and inconsistent data decreases the usefulness of the 1761.
     DFAS Indianapolis Operations should require the preparer of the 1761 to compare
     the realized variance amounts on the 1761 to the gross disbursements reported on
     the foreign currency fluctuation line of 1002 report. The report preparer should
     research and reconcile discrepancies between the two reports. According to the
     preparer, preparation of the foreign currency reports require an estimated 24 hours
     of work per month.


Report on Work Years and Personnel Costs - Office of
  Personnel Management 0197
     DFAS Indianapolis Operations reported amounts on the FY 2004 and FY 2005
     OPM 0197 for Army General Fund (AGF) and Army Working Capital Fund
     (AWCF) that were inaccurate and inconsistent with amounts reported on the
     OP-8, Department of the Army, Civilian Personnel Costs. OPM report
     preparation guidance for the OPM 0197 requires that agencies reconcile their
     Fiscal Year Work Years and Personnel Costs data with corresponding Object
     Class Data in the actual column of the President’s Budget. To achieve this
     reconciliation, OPM schedules the Work Years and Personnel Costs reporting
     after agencies have transmitted final Object Class Data for the President’s Budget.
     Agencies should establish appropriate internal coordination procedures to ensure
     that the data are reconciled. The DFAS Indianapolis Operations standard
     operating procedure on report preparation also contains reconciliation
     requirements and defines large discrepancies as those five percent or greater.

     DFAS Indianapolis Operations uses a worksheet to compare amounts pulled from
     HQARS for the OPM 0197 report to the actual amounts from the President’s
     Budget, as contained in the OP-8, Department of the Army, Civilian Personnel
     Costs. The worksheet used by DFAS Indianapolis Operations to prepare the
     FY 2004 OPM 0197 identified large differences between the HQARS amounts
     and the OP-8, Department of the Army, Civilian Personnel Costs. For example,
     general schedule total basic payroll was identified as $9.3 billion from HQARS,
     but as $8.6 billion on the OP-8, Department of the Army, Civilian Personnel
     Costs. The difference is $659 million, or 7.08 percent. The report preparer stated
     that DFAS Indianapolis Operations issued the FY 2004 OPM 0197 using the data
     from HQARS without reconciling the differences between amounts from HQARS
     and the OP-8, Department of the Army, Civilian Personnel Costs.

     The worksheet used by DFAS Indianapolis Operations to prepare the FY 2005
     OPM 0197 also contained amounts from HQARS and the OP-8, Department of
     the Army, Civilian Personnel Costs. The OP-8, Department of the Army, Civilian
     Personnel Costs amounts on the worksheet for FY 2005 were exactly the same as
     the OP-8, Department of the Army, Civilian Personnel Costs amounts on the
     FY 2004 worksheet. The DFAS Indianapolis Operations report preparer did not
     obtain the FY 2005 actual amounts and perform a reconciliation as part of the
     preparation of the FY 2005 OPM 0197 report.



                                          8
We obtained the OP-8, Department of the Army, Civilian Personnel Costs
containing the FY 2005 actual amounts and compared them to the amounts used
by DFAS Indianapolis Operations on the FY 2005 OPM 0197 report. We were
able to perform a total of 48 comparisons between the OPM 0197 data and the
amounts on the OP-8, Department of the Army, Civilian Personnel Costs. Of the
48 comparisons, 22 identified variances that exceeded the 5 percent variance level
defined in the DFAS Indianapolis Operations standard operating procedure as a
large discrepancy. In addition, the OPM 0197 report included amounts for Wage
Employees-Panama Canal and a pay system category of Other, which were not
directly comparable to the amounts reported on the OP-8, Department of the
Army, Civilian Personnel Costs. Table 4 contains examples where the personnel
compensation reported in the OPM 0197 varied from the OP-8, Department of the
Army, Civilian Personnel Costs.

     Table 4. Personnel Compensation – FY 2005 OPM 0197 versus OP-8
                           (Dollars in Thousands)
       Record        OPM 0197          OP-8       Variance   Percentage
                                                              Variance
 Department of the   $10,087,411 $10,984,977       $897,566         8.90
 Army, Agency
 Total-Sum of All
 Pay Systems, Total
 Payroll
 Department of the       434,888        496,231       61,343       14.11
 Army, General
 Schedule, Total
 Premium Pay
 Department of the           166          3,789        3,623    2,182.53
 Army, Senior
 Executive Service,
 Total Premium
 Pay


Variances also existed between work year amounts reported on the FY 2005
OPM 0197 and the OP-8, Department of the Army, Civilian Personnel Costs.
Table 5 contains examples of the variance between the Work Years Reported in
the OPM 0197 and the OP-8, Department of the Army, Civilian Personnel Costs.




                                    9
                Table 5. Work Years - FY 2005 OPM 0197 versus OP-8
       Record          OPM 0197         CABS OP-8          Variance      Percentage
                                                                          Variance
 Department of the           182,509           205,041          22,532            12.35
 Army, Agency
 Total-Sum of All
 Pay Systems
 Department of the            23,848            25,678           1,830             7.67
 Army, Working
 Capital Fund,
 Agency Total-
 Sum of All Pay
 Systems
 Department of the             9,518            10,923           1,405            14.76
 Army, Working
 Capital Fund,
 General Schedule


Our review of the FY 2004 and FY 2005 OPM 0197 reports also identified
inconsistencies between the amounts in the preparation worksheets and the
OPM 0197 report; lines on the OPM 0197 report where the subtotals did not
match the overall totals; and missing explanations for Other Premium Pay
amounts that are required by the OPM preparation instructions. The
inconsistencies included the following.

   •   The $426,264,000 Total Premium Pay, $126,644,000 Cash Awards, and
       $126,644,000 Other Awards subtotal reported on the FY 2005 OPM 0197
       for the General Schedule pay system category differ from the
       $434,888,000, $135,268,000, and $135,268,000 appearing in the
       preparation worksheet. Each difference is $8,624,000.

   •   The FY 2005 OPM 0197 Agency Total Sheet reports $147,364,000 for
       Cash Awards, but the sub-bullets under Cash Awards only sum to
       $140,283,000. The difference is $7,081,000.

   •   The OPM preparation guidance requires the separate identification of any
       forms of premium pay included in Code 212-Other Premium Pay that are
       equal to $100,000 or more. The FY 2005 OPM 0197 Agency Total Sheet
       reported Code 212-Other Premium Pay of $47,395,000 but it did not
       contain an explanation as to what the other premium pay was.

Because DFAS Indianapolis Operations did not reconcile amounts reported on the
OPM 0197 to the Object Class Data in the actual year column of the President’s
Budget, the Office of Management and Budget was provided one set of data and
OPM was provided a different set of data. DFAS Indianapolis Operations did not


                                   10
    follow the preparation instructions when preparing the OPM 0197 report. This
    includes comparing the amounts reported on the OPM 0197 to the President’s
    Actual amounts and reconciling differences. DFAS Indianapolis Operations
    should also review the OPM 0197 for errors such as inconsistencies with the
    preparation worksheets. According to the preparer, this report requires an
    estimated 40 hours of work per year.


Morale, Welfare, and Recreation Report
    DFAS Indianapolis Operations prepared the March 2006 Morale, Welfare, and
    Recreation Report with inaccurate amounts in the form of unreconciled abnormal
    conditions. The DFAS Indianapolis Operations standard operating procedure on
    the Morale, Welfare, and Recreation Report requires that the report preparer
    produce the report at the operating agency level and check it for illogical and
    omitted data. The report preparer is required to contact field activities about any
    concerns and the problems are to be corrected before the report is issued. The
    DFAS Indianapolis Operations standard operating procedure identifies abnormal
    conditions as wages and no benefits or benefits and no wages. The DFAS
    Indianapolis Operations report preparer also acknowledged that benefits that
    exceed wages is also an abnormal condition.

    The March 2006 Morale, Welfare, and Recreation Report at the operating agency
    level contained five abnormal conditions, where benefits, totaling $636,610,
    exceeded reported wages of $340,612, as identified in Table 6. In addition, the
    report contained two abnormal conditions, where benefits, totaling $1,047, were
    reported without any wage amounts.

            Table 6. March 2006 Morale, Welfare, and Recreation Report
                             Operating Agency Level
            Category          Benefits Exceed Wages Benefits and No Wages
     Total Benefits                         $636,610                   $1,047
     Total Wages                                   340,612                            0


    The Morale, Welfare, and Recreation Report is also prepared at the departmental
    level. The report sums balances at the operating agency level. Abnormal
    conditions were also visible at the departmental level. For example, DoD-Level,
    Category B-Basic community Support Activities, Arts and Crafts reported a total
    of $395,586 in wages and $636,652 in benefits.

    The DFAS Indianapolis Operations report preparer should review the completed
    Morale, Welfare, and Recreation report for abnormal conditions such as where
    benefits are reported with no wages, wages are reported with no benefits, and
    where benefits exceed wages. The report preparer should research and correct
    abnormal conditions in the Morale, Welfare, and Recreation report so that report
    recipients receive accurate data. According to the preparer, this report requires an
    estimated 4 to 6 weeks per year to prepare.



                                         11
Report of Costs in Support of Secret Service for Protective
  Assistance (RCS DD-COMP [SA] 1466) (Secret Service
  Report)
     The Secret Service Report prepared by DFAS Indianapolis Operations is
     unnecessary. On July 12, 2006, we contacted the sole report recipient at the
     Defense Manpower Data Center. The report recipient stated that this report is no
     longer required to be submitted as they no longer prepare a consolidated DoD
     report. A followup conversation with Defense Manpower Data Center personnel
     confirmed that they no longer want the Secret Service Report.

     Preparation of the Secret Service Report expends resources at DFAS Indianapolis
     Operations and at numerous field activities that are required to submit feeder
     reports to DFAS Indianapolis Operations. Resources are not used effectively
     when unnecessary reports are prepared. DFAS Indianapolis Operations should
     review the Secret Service Report preparation requirements and, if unable to find
     any other user for the report, stop preparing the report and have field activities
     stop submitting their data to DFAS Indianapolis Operations.


Unit Exchange Report
     The Unit Exchange Report prepared by DFAS Indianapolis Operations has no
     known users. The DFAS Indianapolis Operations standard operating procedure
     on report preparation states that the completed report is mailed to the “Deputy
     Director, Accounting, Defense Finance and Accounting Service, ATTN: DFAS-
     HQ/ADA.” DFAS Indianapolis Operations files contained address labels for the
     completed report with an address in the Pentagon. DFAS Indianapolis Operations
     files also contained the names of several personnel who were identified as DFAS
     Headquarters points of contact for the report. However, we were unsuccessful in
     our attempts to contact them, and it appeared that they no longer worked for
     DFAS. We requested that DFAS Indianapolis Operations assist us in identifying
     a user of the Unit Exchange Report, but DFAS Indianapolis Operations personnel
     were unable to track down who is receiving the report and stated that no one
     seems to know what this report is used for or who gets it.

     As with the Secret Service Report, preparation of the Unit Exchange Report
     expends resources at DFAS Indianapolis Operations and at numerous field
     activities that are required to submit feeder reports to DFAS Indianapolis
     Operations. Resources are not used effectively when unnecessary reports are
     prepared. DFAS Indianapolis Operations should review Unit Exchange Report
     preparation requirements and, if unable to identify a user for the report, stop
     preparing the report and have field activities stop submitting their data to DFAS
     Indianapolis Operations.




                                         12
Management Oversight
    Supervisory review of the preparation of the five special Army reports would
    have identified the report inaccuracies. Supervisory review of the special Army
    reports program would have also identified the deficiencies in the standard
    operating procedures. None of the five inaccurate special Army reports had
    effective supervisory review and approval. The standard operating procedures
    were not only inadequate, they did not provide for report quality assurance like
    supervisory review and approval. As a result, DFAS Indianapolis Operations
    provided decision makers with reports that were inaccurate, and in one case,
    unusable.

    In addition, DFAS Indianapolis Operations prepared one report that was
    unnecessary and another report for no known users. The preparers did not take
    action to ensure that special Army reports were needed prior to preparation. This
    resulted because the standard operating procedures did not require that need be
    validated, and the supervisors did not adequately review the work of the
    preparers. DFAS Indianapolis Operations personnel should not be expanding
    efforts to prepare special Army reports that are not required.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Director of the Defense Finance and Accounting
    Service Indianapolis Operations revise the standard operating procedures on
    special Army report preparation. At a minimum, the standard operating
    procedures should require that the Defense Finance and Accounting Service
    Indianapolis Operations:

           1. Review the Army Report on Personnel and Payroll Outlays by
    Operating Location to ensure that data are correctly aligned at the operating
    location level.

    Management Comments. The Director of DFAS Indianapolis Operations
    concurred and stated DFAS Indianapolis Operations has incorporated reviews of
    the report by operating location as an extra control to identify any questionable
    data submissions. The completion date was February 16, 2007.

           2. Review the Health Services Command Report for completeness
    prior to submission to the customer.

    Management Comments. The Director of DFAS Indianapolis Operations
    concurred with the recommendation. The Director stated that DFAS Indianapolis
    Operations put control total balancing into the Standard Operating Procedures and
    also added end of file marker requirements to prevent future occurrences. The
    completion date was January 31, 2007.




                                        13
      3. Reconcile the Foreign Currency Fluctuation Report (DD COMP
(M) 1761) and the Appropriation Status by Fiscal Year Program and
Subaccounts 1002 report and resolve any variances.

Management Comments. The Director of DFAS Indianapolis Operations
concurred and stated that DFAS Indianapolis Operations has added an internal
control check to verify that the foreign currency amounts balance to the 1002
report and match to the expenditure balance forward reports. The Director also
stated that the amounts on the 1761 Report are reported in the correct columns in
accordance with the Department of Defense Financial Management Regulation,
volume 6A, chapter 7, and that the program correctly calculates the Realized
Variance amounts and places the amount in the Realized Variance column. The
program also displays the Foreign Currency Liquidated Obligations (Budget
Rate) correctly. The completion date was January 31, 2007.

Audit Response. We consider the Director of DFAS Indianapolis Operations
comments responsive. However, DFAS Indianapolis Operations personnel were
unable to explain inconsistencies in the presentation of foreign currency data.

       4. Review and approve special Army reports at the supervisory level
for accuracy and adherence to the standard operating procedures, and
correct any discrepancies found in the reports.

       5. Review special Army reports annually to determine whether the
reports are required prior to preparation of the reports.

      6. Retain the documentation of the supervisory reviews and the
annual review of the need for special Army reports.

Management Comments. The Director of DFAS Indianapolis Operations
concurred with Recommendations 4, 5, and 6. The Director stated that DFAS
Indianapolis Operations personnel would work with field personnel to resolve and
correct discrepancies found in the Morale, Welfare, and Recreation report. The
Director also stated that DFAS Indianapolis Operations would perform an annual
review of all reports for necessity and maintain documentation of that review.
These management actions were completed January 31, 2007.




                                    14
Appendix A. Scope and Methodology
    We reviewed the DFAS Indianapolis Operations processes for the preparation of
    special Army reports. Our review included special Army reports prepared during
    FY 2005 and FY 2006. We compared the special Army reports to the report
    preparation requirements found in DoD Directives, DoD Instructions, the DoD
    Financial Management Regulation, DFAS Indianapolis Operations standard
    operating procedures, and preparation instructions provided by report requesters.
    We compared the amounts reported on special Army reports to source
    documentation used by DFAS Indianapolis Operations to prepare the reports.
    This source documentation included automated financial reports submitted by
    field accounting entities, the SF 1002 Report, and documents such as DD 1131
    Cash Collection Vouchers. We conducted interviews with DFAS personnel
    responsible for preparing the special Army reports. We also sent questionnaires
    to the users of the special Army reports and conducted followup interviews with
    selected report users.

    We performed this audit from March 2006 through November 2006 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We used reports generated by accounting
    systems within DFAS Indianapolis Operations and DFAS field accounting
    activities to perform this audit. We did not test the reliability of the data in
    accounting systems used by DFAS Indianapolis Operations and DFAS field
    accounting activities to prepare special Army reports. Our review of DFAS
    Indianapolis Operations controls over the preparation of special Army reports
    shows that the accounting data used to prepare the reports were unreliable.
    However, the lack of reliable budget execution information did not affect our
    analysis or conclusions as discussed in the finding.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Defense Financial Management high-risk area.


Prior Coverage
    We did not identify any reports issued during the last 5 years that addressed the
    preparation of Army special reports by DFAS Indianapolis Operations.




                                        15
Appendix B. Special Army Reports
   DFAS Indianapolis’s Departmental Budget Execution Operations prepares the
   following 14 special Army reports.

   Agriculture and Grazing Report. The Agriculture and Grazing Report presents
   expenses and proceeds related to the Agricultural and Grazing Lease Program.
   DFAS Indianapolis Operations compiles the quarterly Agriculture and Grazing
   amounts based on data in HQARS and data submitted by the field activities.
   DFAS Indianapolis Operations enters the data into the U.S. Army Environmental
   Center Reimbursable Programs Tracking System where U.S. Army
   Environmental Center personnel access the report and use it to manage the
   proceeds derived from the Agriculture and Grazing Lease Program.

   Army Report on Personnel and Payroll Outlays by Operating Location. The
   preparation of the Army RPPOOL is mandated by Department of Defense
   Instruction Number 7710.3, “Reporting of Personnel and Payroll Outlays by
   Operating Location,” January 12, 1987. The Army RPPOOL reports personnel
   and payroll outlays data for geographic locations where DoD personnel are
   assigned. Specifically, for each operating location, it includes the number of
   active duty military personnel, active duty military pay, Reserve and/or National
   Guard pay, and retired military pay. DFAS Indianapolis Operations prepares the
   Army RPPOOL on an annual basis, based on data call submissions. DFAS
   Indianapolis Operations provides the RPPOOL to the Defense Manpower Data
   Center, where it is consolidated with reports from other DoD Components and
   used to prepare the Consolidated Federal Funds Report and the DoD Atlas.

   Federal Aid to States Report. The Federal Aid to States Report presents
   Department of the Army expenditures for grants to state and local governments
   by state and U.S. Outlying Area. DFAS Indianapolis Operations prepares the
   annual Federal Aid to States Report based on the amounts reported on the Army
   Appropriation Status by Fiscal Year Program and Subaccounts, 1002 Reports.
   DFAS Indianapolis Operations provides the completed Federal Aid to States
   Report to the U.S. Census Bureau, where it is consolidated with data from other
   agencies into a Government-wide Federal Aid to States Report.

   Foreign Currency Report for Department of the Army. Preparation of the
   Foreign Currency Report is required by DoD Financial Management Regulation
   volume 6A, chapter 7, January 2001. The Foreign Currency Report provides
   information related to obligations incurred in a foreign currency, including
   foreign currency unliquidated obligations (budget rate), accrued variances, and
   realized variances. DFAS Indianapolis Operations prepares the monthly Foreign
   Currency Report based on HQARS data and submits them to users at DFAS
   Indianapolis Operations, Washington Headquarters Service, and the Army.
   DFAS Indianapolis Operations also posts the monthly Foreign Currency Report
   on the DFAS website, where is can be accessed by report users.

   Forestry Report. The Forestry Report presents expenses, collections, and state
   entitlements related to the forestry program. DFAS Indianapolis Operations
   prepares the quarterly report based on data from HQARS, data submitted by field


                                      16
sites, and data obtained by querying the Operational Data Store system. DFAS
Indianapolis Operations enters the data into the U.S. Army Environmental Center
Reimbursable Programs Tracking System where U.S. Army Environmental
Center personnel access the report and use it to manage the proceeds derived from
the forestry program.

Health Services Command Report. The Health Services Command Report
provides selected budget execution data for Defense Health Program
appropriations. Using budget execution data from HQARS, DFAS Indianapolis
Operations prepares the Health Services Command Report monthly and submits it
to the Navy. There, it is consolidated with data from other DoD Components and
then provided to Tricare Management Activity to populate a website used by
financial personnel to track obligations.

Investment Status Report. The Investment Status Report (“Gift Fund”) presents
investment activity associated with each gift fund. DFAS Indianapolis
Operations prepares this report based on Treasury data, field activity submissions,
and data from the Program Budget Accounting System. DFAS Indianapolis
Operations makes investments on behalf of fund holders and is required to
provide fund holders with reports on each gift fund’s balance and earnings on a
quarterly basis. This allows fund holders to monitor their funds and determine
when it is time to reinvest funds.

L-Account Report. The L-Account Report presents obligations related to the
Morale, Welfare, and Recreation and Family Program funds. DFAS Indianapolis
Operations prepares the monthly L-Account Report based on HQARS data and
sends it to the Army Community Services representative, who uses it to monitor
execution of Morale, Welfare, and Recreation and Family Program funds.

Monthly Receivable Reports-Department of the Army and Office of the
Secretary of Defense-Army Allocation. The Monthly Receivable Reports
present account receivable data for Department of the Army and the Office of the
Secretary of Defense-Army Allocation. DFAS Indianapolis Operations prepares
the Monthly Receivable Reports from HQARS data and data call submissions
from field activities. The completed reports are placed on the e-portal, where
DFAS Arlington personnel combine the data with reports prepared by other sites
to produce a DoD-wide report. The DoD-wide report is provided to the Office of
the Secretary of Defense and allows DoD to keep track of accounts receivable.

Morale, Welfare, and Recreation Report. The Morale, Welfare, and
Recreation Report provides data on fund execution for morale, welfare, and
recreation for current fiscal year appropriations. DFAS Indianapolis Operations
prepares a semi-annual Morale, Welfare, and Recreation Report based on budget
execution data retrieved from HQARS and submits it to the U.S. Army
Community and Family Support Center, where it is used for analysis and
reporting to the Army, Office of the Secretary of Defense, and Congress.

Report of Costs in Support of Secret Service for Protective Assistance (RCS
DD-COMP [SA] 1466) (Secret Service Report). The preparation of the Secret
Service Report is mandated by DoD Directive No. 3025.13, “Employment of
Department of Defense Resources in Support of the United States Secret


                                    17
Service,” September 13, 1985. The Secret Service Report provides costs incurred
by DoD Components in support of the U.S. Secret Service for protective
assistance. DFAS Indianapolis Operations Regulation 37-1, chapter 28,
“Accounting Reports,” March 2005, requires that accounting activities prepare
semi-annual reports on the costs incurred and submit them to DFAS Indianapolis
Operations. From these reports, DFAS Indianapolis Operations prepares a
consolidated Secret Service Report and submits it to the Defense Manpower Data
Center.

Report on Work Years and Personnel Costs - OPM 0197. Each year, the
Office of Personnel Management requests a Work Years and Personnel Costs
Report from agencies to assist them and the Office of Management and Budget in
addressing policy issues having major budgetary impact. The data are used in
estimating the cost of proposed Federal pay increases, evaluating the financial
effects of proposed legislation relating to personnel compensation and benefits,
and analyzing comparability of pay and personnel benefits with the non-Federal
sector. Using accounting data retrieved from HQARS and data call information
received from field sites, DFAS Indianapolis Operations prepares separate OPM
0197 Reports for AGF and AWCF. These are submitted to OPM.

Treasury Reports on Receivables – Department of the Army and Office of
the Secretary of Defense-Army Allocation. The quarterly preparation of the
Treasury Reports on Receivables is required by the Department of the Treasury
and is prepared for the Department of the Army and Office of the Secretary of
Defense-Army Allocation. The Treasury Reports on Receivables report on the
status of receivables, delinquent debt, debt eligible for referral to the Department
of the Treasury for offset and cross-servicing, collections, and debt disposition.
DFAS Indianapolis Operations prepares the Treasury Reports on Receivables
based on amounts extracted from HQARS and from amounts reported on the
Monthly Receivable Reports. DFAS Indianapolis Operations submits the
Treasury Reports on Receivables to a user at DFAS Indianapolis Operations,
where they are consolidated and submitted to the Department of the Treasury.

Unit Exchange Report. The Unit Exchange Report tracks the costs and dates for
training or other services provided by the U.S. Army to another country or
received by the U.S. Army from another country. Field activities are required to
submit data or provide a negative report to DFAS Indianapolis Operations by
December 1 of each year. DFAS Indianapolis Operations consolidates the data
received from the various units, establishes reimbursables or receivables
accordingly, and provides the annual Unit Exchange Report to DFAS Arlington,
where it is consolidated with input from other Military Departments and provided
to Congress.




                                     18
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                          19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      20
Defense Finance and Accounting Service
Indianapolis Operations Comments




                      21
22
23
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Jack L. Armstrong
Paul C. Wenzel
Leslie M. Barnes
Andrew D. Gum
E. Ellen Kleiman
Joseph A. Baer
Chad A. Maroska
Ann L. Thompson
